9
APPENDIX: MEMORANDUM:

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15312 D.C. No. 2:17-cv-01747DIMITRITZA TOROMANOVA,
KJD-CWH MEMORANDUM*
Plaintiff-Appellant, v. SUMMIT
REAL ESTATE SERVICES, LLC; et
al., Defendants-Appellees, and MTC
FINANCIAL, INC.; et al.,
Defendants.

Appeal from the United States District Court for the
District of Nevada
Kent J. Dawson, District Judge, Presiding
**

Submitted November 18, 2019
Before:

CANBY, TASHIMA, and CHRISTEN, Circuit Judges.

Dimitritza Toromanova appeals pro se from the district court’s order
denying her motion for relief from judgment under Federal Rule of Civil Procedure 60(b).
We have jurisdiction under 28 U.S.C. § 1291. We review for an abuse of discretion, Sch.
Dist. No. 1J, Multnomah Cty., Or. v. ACandS, Inc., 5 F.3d 1255, 1262 (9th Cir. 1993), and
we affirm.
The district court did not abuse its discretion by denying Toromanova’s motion for
relief from judgment because Toromanova failed to demonstrate any basis for such relief.
See id. at 1263 (setting forth grounds for relief under Rule 60(b)).
We do not consider matters not specifically and distinctly raised and argued in the
opening brief. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
Toromanova’s emergency motion “to void relief from stay order” and seeking to
enjoin foreclosure proceedings pending appeal is denied. See Winter u. Natural Res. Def.

10
Council, Inc., 555 U.S. 7, 20 (2008); see also 28 U.S.C. § 158 (bankruptcy court orders may
be appealed to the district court or bankruptcy appellate panel).
Toromanova’s requests for judicial notice of the case record, set forth in her
opening and reply briefs, are denied as unnecessary. See Fed. R. App. P. 10(a)
(composition of the record on appeal).

AFFIRMED.

Case 2:17-cv-01747-KJD-CWH Document 36 Filed 02/01/19 Page 1 of 6

1
2
3
4

UNITED STATES DISTRICT COURT

5

DISTRICT OF NEVADA

6

***

7

DIMITRITZA H. TOROMANOVA,

8
9
10
11

Plaintiff,

ORDER

v.
SUMMIT REAL ESTATE SERVICES, LLC, et
al.,
Defendant.

12
13

Case No. 2:17-cv-01747-KJD-VCF

Before the Court is Plaintiff Dimitritza Toromanova’s Motion for Relief from Order —

14

FRCP 60. (#33). Defendants Summit Real Estate and Caliber Home Loans responded (#34), and

15

Toromanova replied (#35).

16

In this alleged wrongful foreclosure case, Toromanova seeks declaratory relief that none

17

of these defendants may rightfully pursue foreclosure against either of her properties. This is not

18

the first time Toromanova has litigated this case. Toromanova first brought her claims in state

19

court in April of 2017. There, Toromanova alleged that Summit Real Estate and Caliber Home

20

Loans failed to produce her mortgage note and assignment information and that they wrongfully

21

initiated foreclosure on her property. Shortly after filing that case—and before that court reached

22

the merits of her claim—Toromanova filed this suit against the same parties and alleged the

23

same causes of action. Compl. 1-3, ECF No. 1. In July of 2017, Toromanova’s state-court case

24

was dismissed. On March 23, 2018, this Court also dismissed each of Toromanova’s claims

25

against the various defendants. In its order, this Court found that Toromanova’s state-court

26

dismissal represented a valid judgment, that it concerned the same parties, and that it alleged the

27

same causes of action as her state case. As a result, claim preclusion barred each of

28

Toromanova’s claims.

Case 2:17-cv-01747-KJD-CWH

1

Document 36 Filed 02/01/19 Page 2 of 6

Having already lost in state and federal court, Toromanova now moves for relief from

2

judgment under FRCP 60, which allows the Court to set aside its order under limited

3

circumstances.

4

I.

Legal Standard

5

As always, the Court construes Toromanova’s pro se motion liberally and applies a less

6

stringent standard to the motion’s allegations. See Eldridge v. Block. 832 F.2d 1132, 1137 (9th

7

Cir. 1987). Despite that leeway, Toromanova is still “bound by the rules of procedure.” Ghazali

8

v. Moran. 46 F.3d 52, 53 (9th Cir. 1995). While the Court applies a lesser standard to the

9

allegations of Toromanova’s motion, it does not water down the rules of civil procedure. See id.

10

Accordingly, to receive relief from this Court’s prior order, Toromanova must satisfy the

11

requirements set out in FRCP 60.

12

The public policy favoring the finality of judgments and the interest in conserving

13

judicial resources imposes a high bar on relief under Rule 60(b). Ford Motor Co. v. Mustangs

14

Unlimited. Inc.. 487 F.3d 465, 468 (6th Cir. 2007). Relief from an order or judgment under Rule

15

60(b) is available where the moving party shows one of six requirements: (1) mistake,

16

inadvertence, surprise, or excusable neglect; (2) newly discovered evidence not reasonably

17

discoverable during the litigation; (3) fraud, misrepresentation, or misconduct by an opposing

18

party; (4) the judgment is void; (5) the judgment has been satisfied, released, otherwise

19

discharged, or is no longer equitable; or (6) any other reason justifying relief. Fed. R. Civ. P.

20

60(b)(1)—(6). Rule 60(b) is not a means of challenging the legal conclusions of a prior order or

21

judgment. See Home v. Flores. 557 U.S. 433, 447 (2009).

22

II.

23

It is unclear exactly which of Rule 60(b)’s prongs Toromanova alleges support

Analysis

24

overturning this Court’s order. The beginning of Toromanova’s motion sets out the requirements

25

of Rule 60(b). Toromanova underlined or otherwise emphasized two of the six enumerated

26

sections: 60(b)(3) and 60(b)(5). Rule 60(b)(3) grants relief from a prior order where there has

27

been fraud, and 60(b)(5) grants relief where prospectively enforcing the order is no longer

28

equitable. Because Toromanova emphasized these two sections, the Court assumes that she

-2-

Case 2:17-cv-01747-KJD-CWH Document 36 Filed 02/01/19 Page 3 of 6

1

intends to challenge dismissal based on fraud and inequity of enforcement of the Court’s order.

2

In that light, the Court identifies the following arguments: (1) the Court’s order was based on the

3

defendants’ fraudulent representation of Toromanova’s state-court case; (2) the Court’s dismissal

4

is no longer equitable; and (3) the Court employed the wrong standard in assessing defendants’

5

motion to dismiss. The Court addresses each argument in turn.
A. There is no evidence that any defendant fraudulently misrepresented
Toromanova’s state-court case

6
7

First, Toromanova argues that the Court’s dismissal should be set aside because “the

8

opposing parties have fraudulently misrepresented the state court proceeding.” Pl.’s Mot. for

9

Relief from Order 4, ECF No. 33. She continues, “[the Court] has legalized a blatant fraud based

10

on Defendants’ fraudulent misrepresentations.” Id. at 5 (internal citations omitted). Despite,

11

Toromanova’s serious accusations of fraudulent activity, she does not allege any facts supporting

12

how these defendants misrepresented her initial complaint or how the Court sanctioned that

13

fraud.1 Piecing together the allegations of the motion, the Court interprets Toromanova’s

14

argument as follows: the defendants knowingly misrepresented that her state court complaint

15

asserted the same causes of action as this case. Absent those misrepresentations, claim preclusion

16

would not bar her current claims. She further argues that because Toromanova’s federal case

17

seeks declaratory relief, her state-court dismissal—which did not seek declaratory relief—should

18

not be preclusive. Id, at 11 (“The only enforcement I seek is plainly stated in my amended

19

complaint and it is of a declaratory, not executory, nature”).

20

However, Toromanova cannot escape claim preclusion by severing some claims and

21

bringing them in an “independent action” in a different court. Claim preclusion protects

22

defendants too broadly for such maneuvering to eliminate a prior case’s preclusive effect. It not

23

only extends to identical causes of action between two corresponding suits but to any “grounds

24

of recovery that. .. could have been asserted” in the first action but were not. Univ. of Nevada v.

25

Tarkanian. 879 P.2d 1180, 1192 (Nev. 1994). As this Court found in its order, “the parties named

26

in this action are identical to those in the State Case,” “the State Court’s dismissal. .. was a

27
28

i

On the contrary, the Court has reviewed Toromanova’s state-court complaint (ECF. No. 5, Exh. A) and
her complaint in the current case and finds her allegations of fraudulent misrepresentation entirely baseless.

-3-

Case 2:17-cv-01747-KJD-CWH

Document 36 Filed 02/01/19 Page 4 of 6

1

final, valid judgment that made specific findings of fact and conclusions of law,” and “all of

2

[Toromanova’s] claims stem from the same foreclosure action and are attempts to prevent that

3

foreclosure.” Order 4, ECF No. 29. Toromanova had the opportunity to seek declaratory relief in

4

her first suit in state court bud did not. Accordingly, claim preclusion bars these claims.

5

Additionally, Toromanova’s claims appear to be a veiled attempt to appeal the decision in

6

her state court case. In essence, Toromanova asks this Court to declare that the state court got it

7

wrong. Federal district courts do not have jurisdiction to review state-court decisions. Dist. Of

8

Columbia Court of Anneals v. Feldman. 460 U.S. 462, 482 (1983) (review of state-court

9

decisions only available in the Supreme Court). That prohibition extends to direct appeals from

10

state-court decisions as well as their “de facto equivalent.” Noel v. Hall. 341 F.3d 1148, 1155

11

(9th Cir. 2003). Although Toromanova has not styled her complaint as a direct appeal, the

12

declaratory relief she seeks is a de facto reversal of her state-court dismissal, which this Court

13

cannot provide. Accordingly, dismissal was proper.

14

B. Enforcing this Court’s dismissal remains equitable

15

Next, Toromanova argues that enforcing this Court’s dismissal is inequitable because the

16

Court failed to read her filings, ignored her arguments against dismissal, and “instead[,j just

17

rubber-stamped Defendants’ arguments.” Pl.’s Mot. for Relief from Order 5, ECF No. 33. Rule

18

60(b)(5) provides relief from a judgment or order where “applying the [judgment or order]

19

prospectively is no longer equitable” Home v. Flores. 557 U.S. 433, 447 (2009). It does not

20

allow a losing party to attack an order’s legal conclusions after the fact. Id Rather, the rule

21

requires the moving party to demonstrate “a significant change either in factual conditions or in

22

law” that would make future enforcement “detrimental to the public interest.” Rufo v. Inmates of

23

Suffolk Cntv. Jail. 502 U.S. 367, 384 (1992). Thus, 60(b)(5) relief is only available where

24

enforcing an order has become inequitable due to changed circumstances.

25

Toromanova has not alleged any changed circumstances that would render prospective

26

enforcement of the order inequitable under 60(b)(5). Instead, she attacks both the Court’s legal

27

conclusions and the way she believes the Court evaluated the Motion to Dismiss. Toromanova’s

28

allegations that the Court did not “actually read anything [she] filed” and merely “bootstrapped

-4-

Case 2:17-cv-01747-KJD-CWH Document 36 Filed 02/01/19 Page 5 of 6

1

whatever Defendants put before it” are baseless and fail to allege the “significant change in

2

factual conditions or law” that Rule 60(b)(5) requires. See Pl.’s Mot. for Relief from Order 5, 16,

3

ECF No. 33. Unfortunately for Toromanova, Rule 60(b)(5) is not a do-over for losing parties.

4

See Home. 557 U.S. at 447. It requires evidence of changed circumstances, which she has failed

5

to provide. Therefore, 60(b)(5) does not provide relief.
C. The Court applied the correct standard to defendants’ Motion to Dismiss, and
dismissal was proper

6
7

The remainder of Toromanova’s motion argues that the Court applied the incorrect legal

8

standard when it dismissed her case. None of the 60(b) factors explicitly allow relief based on

9

mistake of law. So, the Court construes Toromanova’s argument as a request for relief under the

10

catchall provision of FRCP 60(b)(6). Rule 60(b)(6) allows the Court to set aside an order for

11

“any reason that justifies relief.” Fed. R. Civ. P. 60(b)(6). Despite the rule’s broad phrasing, the

12

catchall provision is quite narrow. Courts use the rule “sparingly as an equitable remedy to

13

prevent manifest injustice.” United States v. Alpine Land & Reservoir Co.. 984 F.2d 1047, 1049

14

(9th Cir. 1993); see also Gonzalez v. Crosby. 545 U.S. 524, 535 (2005) (relief under 60(b)(6)

15

requires “extraordinary circumstances”). A party seeking relief under 60(b)(6) must demonstrate

16

“both injury and that circumstances beyond its control prevent timely action to protect its

17

interests.” Lehman v. United States. 154 F.3d 1010, 1017 (9th Cir. 1998).

18

The Court need not determine whether Toromanova has demonstrated injury and

19

diligence to warrant 60(b)(6) relief because the Court did not apply the incorrect legal standard

20

in its order. Toromanova’s motion conflates jurisdictional and standing requirements with

21

pleading requirements. At bottom, she argues that declaratory relief actions should not be

22

dismissed so long as there is an active case or controversy. Pl.’s Mot. for Relief from Order 10,

23

ECF No. 33. She adds that because her “complaint expressly invoked this court’s declaratory

24

powers,” the complaint need only satisfy the case and controversy and jurisdictional

25

requirements. Id. at 9-10.

26

Admittedly, the Declaratory Judgments Act allows federal courts to declare a party’s

27

legal rights if it satisfies Constitutional standing requirements. However, this Court’s order did

28

not evaluate whether Toromanova presented an active case or controversy or whether she had

-5-

Case 2:17-cv-01747-KJD-CWH Document 36 Filed 02/01/19 Page 6 of 6

1

standing to seek declaratory relief. It evaluated whether her complaint sufficiently stated a claim

2

for relief under FRCP 12. These separate legal principles apply at different times in the life of the

3

litigation and, more importantly, ask two different questions. Rule 12 asks whether a plaintiff has

4

alleged plausible facts to state a claim for relief, while jurisdiction and standing ask whether the

5

plaintiff belonged in federal court in the first place.

6

The Court employed the correct legal standard when it evaluated the Motion to Dismiss

7

in this case. There was no reason for the Court to apply the standard Toromanova advocates

8

because this Motion to Dismiss did not contest jurisdiction or standing. Because there was no

9

error in the Court’s application of the law, Toromanova’s request for relief under FRCP 60(b)(6)

10

fails.

11

III.

Conclusion

12

Accordingly, it is HEREBY ORDERED that Plaintiffs Motion for Relief from Order -

13

FRCP 60 (#33) is DENIED.

14

Dated this 1st day of February, 2019.

15
16

17

Kent J. Dawson
United States District Judge

18
19
20
21
22
23
24
25
26
27
28

-6-

